                                             Testimony of 


                          THE HONORABLE TODD J. ZINSER 

                               INSPECTOR GENERAL 

                              U.S. DEPARTMENT OF COMMERCE

                                     before a field hearing of the

                        Subcommittee on Domestic Policy, 

                  Committee on Oversight and Government Reform, 

                             House of Representatives 


                                     Tuesday, March 2, 2010 

                                    Gloucester, Massachusetts 




    The National Oceanic and Atmospheric Administration’s
       Fisheries Enforcement Programs and Operations

Chairman Kucinich, Congressman Tierney, and Members of the Subcommittee:

We appreciate the invitation to be here today to discuss our recent report on the fisheries
enforcement programs and operations of the National Oceanic and Atmospheric
Administration (NOAA). 1 My testimony today will briefly summarize our report, and we
request that our entire report be made part of the record.

We undertook our review at the request of Dr. Jane Lubchenco, the Under Secretary of
Commerce for Oceans and Atmosphere, who also serves as the Administrator of NOAA.
She had been contacted by the Massachusetts congressional delegation and state elected
officials, as well as by both U.S. Senators and multiple Representatives from North
Carolina, recounting complaints of excessive penalties and retaliatory actions by NOAA
fisheries enforcement officials. Our review, then, evaluated the policies and practices of the
Office for Law Enforcement (OLE) within NOAA’s National Marine Fisheries Service
(NMFS) and NOAA’s Office of General Counsel for Enforcement and Litigation (GCEL).



1
    National Oceanic and Atmospheric Administration: Review of NOAA Fisheries Enforcement
    Programs and Operations, Final Report No. OIG-19887, January 21, 2010. OIG reports are
    available at our Web site: www.oig.doc.gov.
We examined their overall conduct of enforcement actions; how they prioritize actions and
set penalty assessments; and their use of resources, including funds obtained through
imposed penalties.

We faced two conditions that limited our ability to fully meet our objectives. First,
inadequate management information systems were a significant detriment. For instance,
while NOAA’s data shows regional disparity in aggregate civil penalty assessments,
fostering a perception that such assessments in the Northeast have been arbitrary, NOAA’s
lack of effective case management systems and useful data made more in-depth analysis
impossible. As we further explain below, if NOAA is to succeed in bringing a greater level
of management attention to its enforcement programs, it will need substantially improved
data systems.

Second, we were constrained in our ability to meet our objective to examine the use and
management of what NOAA calls the asset forfeiture fund. We found that despite a balance
of $8.4 million as of December 31, 2009, OLE officials were not aware of the fund’s having
ever been audited, and internal controls over the fund had not been tested. As a result, we
have commissioned a forensic review of the fund as a follow-up action, and that review is
underway.

Our review included speaking with over 225 individuals in various parts of the country,
including the Northeast—fishermen, boat captains, industry association representatives,
conservation officials, Fishery Management Council members, and current and former
NOAA personnel. We also established a dedicated e-mail address for interested parties to
use to provide potentially relevant information. Further, we reviewed numerous OLE and
GCEL enforcement records and related documents, and examined OLE’s and GCEL’s case
management information systems. Finally, we reviewed Department of Justice policy and
guidelines regarding enforcement techniques, and analyzed comparable federal regulatory
enforcement agencies, including the Environmental Protection Agency (EPA) and the
Department of the Interior’s Fish and Wildlife Service.


SUMMARY OF RESULTS
Our report details our three principal findings:

1.	   NOAA   senior leadership and headquarters elements need to exercise substantially
      greater management and oversight of the agency’s regional enforcement operations, to
      include setting enforcement priorities based on integration and coordination with
      headquarters fisheries management and science center elements; implementing
      effective management information systems; and utilizing data to inform its
      management decisions and enforcement activities.

2.	   NOAA  needs to strengthen policy guidance, procedures, and internal controls in its
      enforcement operations to address a common industry perception that its civil penalty
      assessment process is arbitrary and unfair.

                                          2

3.	   NOAA   needs to reassess its OLE workforce composition (presently 90 percent criminal
      investigators), to determine if this criminal enforcement-oriented structure is the most
      effective for accomplishing its primarily regulatory mission.

An important backdrop framing the issues we examined and the results we further discuss
below, is recognizing that regulation of the fishing industry is highly complex and
dynamic—presenting NOAA with a particularly difficult mission. This backdrop
underscores a continual need for NOAA to understand industry perspectives and changing
conditions within its fisheries and the industry; establish and follow enforcement priorities
that are well-grounded and involve integration with the agency’s science elements; ensure
well-managed programs and operations carried out by a workforce structured solely
according to operational needs; and maintain effective communication with the industry.
Essential to NOAA’s overall program effectiveness is ample involvement and oversight by
NOAA leadership, to include ensuring that there are adequate checks and balances for
enforcement operations.

Our report presents specific recommendations for NOAA to strengthen its enforcement
programs and operations, in the interest of promoting greater transparency, consistency,
and oversight. These include:

•	    NOAA  leadership’s regularly addressing and providing input to enforcement priorities
      and strategies with regional management, to include integration and coordination with
      headquarters fisheries management and science center elements.

•	 Instituting a robust ombudsman program to provide an effective interface with the
   commercial fishing industry.

•	 Determining whether NOAA should continue to approach enforcement from a criminal-
   investigative standpoint, and determining whether the agency has an appropriate
   balance and alignment of uniformed enforcement officers and criminal investigators,
   based on mission need.

•	 Ensuring that GCEL implements and follows an operating procedures manual that
   includes processes, methods, and justification for determining civil penalty assessments
   and fine settlement amounts; and that OLE’s enforcement operations manual is current
   and provides sufficient policy guidance on its authorities and procedures for civil and
   criminal enforcement activities.

•	 Ensuring follow-through on GCEL process improvement initiatives outlined in
   its memorandum of December 1, 2009.

•	 Instituting a mechanism for higher-level review of civil penalty assessment
   determinations by GCEL attorneys in advance (e.g., by a panel established within NOAA
   headquarters).


                                            3

•	 Ensuring that GCEL and OLE develop, implement, and effectively utilize reliable,
   integrated case management information systems.


We note that the Under Secretary has directed a series of actions, some immediate and
others in the near future, that are responsive to our findings and recommendations. We
have asked for a specific response to our recommendations and will assess NOAA’s
progress by reviewing and reporting on the status of these and other agency actions.


FINDINGS
NOAA   is entrusted with broad statutory enforcement powers to promote compliance and
deter violations within the commercial fishing industry. This calls for the highest degree of
oversight by NOAA leadership to ensure fairness and consistency in enforcement activities
and sanctions, promote program integrity and accountability, and avoid even the
appearance of abuse of authority. The agency’s enforcement operations have not garnered
a great deal of attention from senior management within the large, science-based
organization. Yet these offices have great potential to affect the fishing industry, the
livelihood of individual fishermen, and the public’s confidence in NOAA and the
Department of Commerce. Our three primary findings are as follows:


1.	 NOAA senior leadership and headquarters elements need to exercise
    substantially greater management and oversight of the agency’s regional
    enforcement operations.

Given the complexities of NOAA’s mission and organization, the industry, and the current
enforcement climate, its establishment of enforcement priorities is essential. This should
involve integration and coordination with its headquarters fisheries management and
science center elements, including the Assistant Administrator for NMFS, to whom OLE
reports. Such linkage, with corresponding use of both science and enforcement-related
data, would better enable NOAA to establish priorities and target its enforcement operations
to those areas warranting such focused attention.

We concluded that a lack of management attention, direction, and oversight led to regional
enforcement elements operating autonomously. As shown in the table below, this
contributed to aggregate fine assessments in the Northeast Region that are inconsistent with
those in the other regions. Moreover, the substantial difference between initially assessed
and settled fines in the Northeast fosters the appearance that fine assessments in that region
are arbitrary.




                                          4

          Table. Total Fines and Penalties, by NOAA Region
                  (July 1, 2004–June 30, 2009)a

                                   “Notice of Violation”
     Region               (Initially Assessed) Amount Settled Amountb
     Alaska                                          $1,549,311               $1,835,597
     Northeast                                        5,471,550                1,572,275
     Northwest                                          599,751                  334,642
     Pacific Islands                                  1,190,500                  994,555
     Southeast                                        2,245,387                1,152,445
     Southwest                                        1,293,120                  594,522
      Total                                          12,349,619                 6,484,036

      a
       Figures have been rounded to the nearest dollar.
      b
       The settled amount represents the agreed upon, reduced penalty amount between GCEL and
       the respondent. According to GCEL, reductions result from a variety of reasons, most
       notably ability to pay. Further, most of the Pacific Islands figures relate to a single large
       case.
      Source: NOAA (Table derived from GCEL data for closed cases for the above 5-year period.)

The table shows that the Northeast Region’s initial fine assessments totaled nearly
$5.5 million—an amount two-and-a-half times greater than the second highest region, and
about five times or more greater than the other regions. Of further significance, the data
show the Northeast as the region with the greatest percentage reduction from assessed to
settled fine amounts (approximately $5.5 million assessed to approximately $1.6 million
settled—a nearly 70-percent reduction).

GCEL’s explanation for this inconsistency is that initial assessment amounts involve
complex factors, which are considered on a case-by-case basis, using NOAA’s Civil
Administrative Penalty Schedule and accompanying internal guidelines. However, no
formal process exists for sufficiently documenting decisions regarding fine assessments
and settlement amounts, making GCEL’s explanations for regional differences unauditable
and thus unverifiable. Further, information contained in the table required substantial data
manipulation, time, and effort for OLE to produce. NOAA also collects funds from asset
forfeitures (e.g., fish seizures); such information is not included in the table. Inclusion of
those figures would require a similarly labor-intensive manual effort.

We also found that NOAA leadership has had minimal involvement in setting enforcement
priorities, linking enforcement to its fishery management goals, or evaluating enforcement
program effectiveness. Similarly, regionally-established enforcement priorities, even if
documented, have not typically been disseminated to headquarters.




                                                5

2.	 NOAA needs to strengthen policy guidance, procedures, and internal
    controls in its enforcement operations to address a common industry
    perception that its civil penalty assessment process is arbitrary and unfair.

GCEL’s  process for determining civil penalty assessments includes significant discretion on
the part of individual enforcement attorneys, with minimal guidance on how to exercise
that discretion. As such, it is difficult to argue with the view that the process is arbitrary
and in need of reform. One reform that NOAA should consider is instituting a process that
includes higher-level review of civil penalty assessment determinations by GCEL attorneys
in advance. NOAA should also revise applicable procedural regulations and penalty
schedules in order to provide greater consistency and clarity, and reduce confusion among
affected industry parties.

Additionally, NOAA’s data for fines are inherently unreliable because of weaknesses in
GCEL’s and OLE’s current case management information systems—in particular, data that
are missing, entered into the systems inconsistently, or vague. For example, based on our
comparison of “closed” case data between OLE and GCEL data systems, out of 2,726 unique
case numbers in OLE’s system, only about 5 percent match GCEL’s system for cases closed
from July 2007 through June 2009.

To its credit, in response to the results of our review, GCEL has recently initiated several
steps to promote transparency, help ensure fairness, and open lines of communication with
the fishing industry. They include initiatives to (1) revise procedural regulations and
penalty schedules; (2) develop an internal operating procedures manual; and (3) implement
a new case-tracking database, linking to OLE’s case management system. 2


3.	 NOAA must reassess its OLE workforce composition, which is now 90 percent
    criminal investigators, to determine if such an emphasis on criminal
    enforcement is the most effective for accomplishing a primarily regulatory
    mission.

Based on OLE’s own data, its caseload from January 1, 2007 through June 30, 2009, was
about 98 percent noncriminal. Ten years ago, NOAA increased its already predominantly
criminal investigator workforce (then 75 percent) to today’s 90 percent. There are
indications in the record that this workforce composition was driven by considerations of
the better pay and benefits that apply to federal criminal investigators, rather than by strict
mission requirements.

OLE’s fundamental mission is to assist in the protection of fisheries by enforcing resource
protection and fisheries management laws. OLE caseload data for January 1, 2007 through
June 30, 2009, illustrate that its mission has principally involved enforcement of the


2
    These efforts are detailed in a December 1, 2009, memorandum from the Assistant General Counsel
    for GCEL to NOAA’s Deputy General Counsel.

                                                 6

Magnuson-Stevens Fishery Conservation and Management Act 3 (65 percent of cases). The
criminal provisions of the Act are narrowly-focused and nearly all are misdemeanors. Yet
because the office is staffed largely with criminal investigators, OLE’s orientation is to
conduct criminal investigations. This despite the fact that the only felony provisions
involve the use of a dangerous weapon during the commission of an act prohibited by
Magnuson-Stevens and the assault of observers and officers authorized to enforce the Act. 4
According to OLE, violations of the Act typically do not result in criminal charges; most
violations (such as exceeding catch limits) result in administrative penalties alone.

While we recognize OLE’s need to maintain a criminal investigative capacity, its
caseload reflects that its current staffing is disproportionate to agency function and
operational need, particularly compared with other agencies with similar mission
profiles and enforcement responsibilities. For instance, agencies such as EPA and
Interior’s Fish and Wildlife Service separate their regulatory and criminal
enforcement functions, with inspectors who handle regulatory enforcement and
criminal investigators who handle criminal investigations.


NOAA ACTIONS IN RESPONSE TO OIG FINDINGS AND RECOMMENDATIONS

In a memorandum dated February 3, 2010, Under Secretary Lubchenco announced
a two-pronged approach to addressing our findings and implementing our
recommendations. This approach, which the Under Secretary characterized as
initial steps, entails a series of immediate actions and other actions to be completed
by March 21, 2010, summarized as follows:

    A. Immediate actions:

       1. Subject to compliance with applicable labor relations requirements, NOAA
          General Counsel shall immediately institute higher level reviews of
          proposed charging decisions, including proposed penalties and permit
          sanctions, and proposed settlements to ensure consistency and predictability.

       2. An immediate freeze on the hiring of criminal investigators until NMFS
          completes an internal work force analysis to address the appropriate mix of
          enforcement personnel and it is approved by the Under Secretary.

       3. An immediate shift in oversight of the NMFS Civil Monetary Penalties Fund
          (also known as the Asset Forfeiture Fund) from NMFS to NOAA’s
          Comptroller.




3
  The Act is codified, as amended, at 16 U.S.C. § 1801 et seq. For more information on the Act, see
  our January 21, 2010, report.
4
  See 16 U.S.C. § 1859.

                                                7

      4.   NMFS, in consultation with NOAA’s Office of Communications, will direct
           resources to improve communications on enforcement issues, particularly in
           the Northeast.

      5.   NOAA’s  General Counsel, NMFS, and NOAA’s Director of External Affairs 

           will develop specific objectives and detailed plans for a summit on law 

           enforcement practices to be held no later than June 30, 2010. 


 B. Actions to be completed by March 21, 2010:

      1.   NMFS’ Office of Law Enforcement and NOAA’s General Counsel, in
           cooperation with NOAA’s Chief Information Officer, will develop a strategy
           and schedule to improve management information systems, including
           recommendations on actions to take advantage of the internet to increase
           transparency.

      2. The Assistant Administrator for Fisheries, with input from NOAA’s 

         leadership, will develop a plan and schedule to implement standardized 

         procedures for setting enforcement priorities.


      3.   NOAA’s  General Counsel for Enforcement and Litigation will develop a plan
           and schedule to strengthen its operating procedures, prosecution of charged
           cases, and settlement actions.

      4. The Assistant Administrator for Fisheries, in collaboration with the NOAA

         Communications Office and General Counsel for Enforcement and 

         Litigation, will develop an outreach strategy to improve engagement with 

         the local fisheries community and the public.


      5. The Assistant Administrator for Fisheries, in consultation with the Director
         of the Workforce Management Office, will formulate a plan to review the
         NMFS Office of Law Enforcement’s staffing and procedures. This plan will
         explicitly address both civil and criminal requirements, with specific focus
         on ensuring that criminal procedures are not applied to civil offenses.
         Development of the plan should include appropriate independent review.


OFFICE OF INSPECTOR GENERAL FOLLOW-UP

We have identified three areas for additional review stemming from our results:

1.	   NOAA’s Retention of Civil Penalties and its Asset Forfeiture Fund. Fishermen and other
      industry sources expressed concern to us that NOAA’s fines are excessive, constituting a
      form of bounty, because the agency is able to retain the proceeds from its enforcement
      cases. This is not an uncommon charge against law enforcement agencies granted
      authority to seize assets. The most effective way to counter such charges is for the

                                           8

      agency to demonstrate in a transparent way how the proceeds of its enforcement
      actions are used. NOAA has the statutory authority to retain proceeds from the civil
      penalties it imposes and collects, and pursuant to asset forfeitures (such as the sale of
      seized fish, vessels, etc.) for Magnuson-Stevens Act violations to pay for expenses
      directly related to investigations and civil or criminal enforcement proceedings. 5

      We determined that NOAA has an asset forfeiture fund comprising such proceeds, the
      balance of which the agency reported as $8.4 million as of December 31, 2009.
      However, the account under which these proceeds are maintained has weak internal
      controls, and we could not readily determine how NOAA has utilized these funds. This is
      because while the fund’s balance is included in the Department’s overall financial
      statements, internal controls over the fund are not tested as part of the Department’s
      annual financial statement audit, due to the relatively small size of the fund; neither are
      they tested as part of the annual Department-wide financial audit. As mentioned, we are
      commissioning a forensic review of the fund, and will issue our findings upon its
      completion.

2.	   NOAA’s Progress in Addressing OIG’s Results. We will review and report on NOAA’s
      progress in carrying out its actions in response to our findings and recommendations.
      Our follow-up efforts will include reviewing the above-referenced actions announced
      by the Under Secretary, GCEL’s initiatives, and any additional measures NOAA takes to
      implement our recommendations.

3.	 Individual Complaints. In order to carry out this review in a timely manner, it
    was necessary to closely define our scope and focus on the management of the
    programs and operations related to fisheries enforcement. At the same time,
    expectations rose that we would investigate individual cases, brought to our
    attention or reported in the media, in which fishermen believe they were
    treated unfairly or were subject to overzealous enforcement. We could not
    accomplish both at the same time. Therefore, our initial focus was on the
    management issues we identified.

      We received specific complaints from dozens of fishermen during our review, 

      including alleged abuses of authority by NOAA enforcement personnel, 

      disparate treatment, and excessive fines. We are in the process of examining 

      these complaints and corresponding enforcement case files to determine 

      whether any additional action is necessary or recommended, either by our 

      office or NOAA. Based on our review to date, allegations of abusive treatment 

      are not widespread; however, I feel that it is important that we do all we can to 

      get to the bottom of these concerns and the facts surrounding these cases. 



Mr. Chairman, this concludes my prepared statement. I would be pleased to respond
to any questions that you or other Members of the Subcommittee may have.

5
    16 U.S.C. § 1861(e)(1)(C).

                                            9

